                                                   NATIONAL SCIENCE FOUNDATION 

                                                    OFFICE OF INSPECTOR GENERAL 

                                                      OFFICE OF INVESTIGATIONS 


                                             CLOSEOUT MEMORANDUM

Case Number: Al1020010                                                                     Page 1 ofl



                NSF-OIG received a complaint from a PI, who claimed that a patent application l was
        similar to two of his unfunded proposals? We examined the review panel for each unfunded
        proposal, and neither of the subjects served as reviewers for either proposal. We also compared
        the proposals and the patent application and found that although they contained similar ideas, the
        evidence does not indicate that the subjects misappropriated the PI's intellectual property.
        Furthermore, no other evidence indicates a connection between the subjects and the PI or the PI's
        unfunded proposals.

                  This preliminary case is closed with no further action taken.




NSF OIG Form 2 (11/02)
